<html>
<title> - MEASURING AND INCREASING THE EFFECTIVENESS OF PROVINCIAL RECONSTRUCTION TEAMS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                         [H.A.S.C. No. 110-96] 

MEASURING AND INCREASING THE EFFECTIVENESS OF PROVINCIAL RECONSTRUCTION 
                                 TEAMS 

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 18, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                        U.S. GOVERNMENT PRINTING OFFICE 

38-977 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

                                     
  




































               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                Greg Marchand, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                     Sasha Rogers, Staff Assistant


















































                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, October 18, 2007, Measuring and Increasing the 
  Effectiveness of Provincial Reconstruction Teams...............     1

Appendix:

Thursday, October 18, 2007.......................................    29
                              ----------                              

                       THURSDAY, OCTOBER 18, 2007
MEASURING AND INCREASING THE EFFECTIVENESS OF PROVINCIAL RECONSTRUCTION 
                                 TEAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Bowen, Stuart W., Jr., Special Inspector General for Iraq 
  Reconstruction.................................................     3
Perito, Robert M., Senior Program Officer, Center for Post-
  Conflict Peace and Stability Operations, U.S. Institute of 
  Peace..........................................................     5

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    34
    Bowen, Stuart W., Jr.........................................    37
    Perito, Robert M.............................................    48
    Snyder, Hon. Vic.............................................    33

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Dr. Snyder...................................................    57
MEASURING AND INCREASING THE EFFECTIVENESS OF PROVINCIAL RECONSTRUCTION 
                                 TEAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                        Washington, DC, Thursday, October 18, 2007.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Good morning. I appreciate you both being here. Welcome to 
the Subcommittee on Oversight and Investigations' hearing on 
measuring and improving the effectiveness of provincial 
reconstruction teams, that we know as PRTs.
    Over the past one and a half months, the subcommittee has 
held a number of hearings and briefings to examine PRTs in Iraq 
and Afghanistan, as part of an interagency case study. These 
sessions have included military and civilian personnel who have 
worked on PRTs, government officials with PRT oversight 
responsibilities, and outside experts who specialize in civil-
military affairs and reconstruction-related activities. We are 
so impressed with these really magnificent and thoughtful and 
brave people who serve on these PRTs.
    One question that we have not heard sufficiently addressed 
to this point is whether PRTs, as currently constituted, are 
effectively accomplishing the missions they have been given. 
Some of you may recall at a hearing a couple of weeks ago, Mrs. 
Susan Davis from California put this question directly to our 
Department of Defense witnesses: How are we measuring the 
effectiveness of PRTs?
    Their answer was that there are no standardized metrics for 
determining whether PRTs are effective, because it is too 
difficult to establish such standards in a way that also 
accounts for the different regional conditions faced by each 
team.
    I am pleased that we have the opportunity at today's 
hearing to consider the newly-released third report of the 
special inspector general for Iraq reconstruction on PRTs. 
SIGIR has played a leading role in examining the development of 
PRTs in Iraq, and today's report is an important step along the 
way to measure the effectiveness of PRTs.
    Our witnesses today are Mr. Stuart Bowen, the special 
inspector general for Iraq reconstruction; and Mr. Robert 
Perito, a senior program officer with the Center for Post-
Conflict Peace and Stability Operations at the U.S. Institute 
of Peace.
    Thank you both for being here.
    Mr. Akin, I will recognize you for any comments you want to 
make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 33.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    Welcome to the committee here. We have had some very 
interesting hearings on PRTs. This is the third public hearing, 
and the focus is on measuring the effectiveness of PRTs. While 
the subcommittee has studied the concept of how an interagency 
team comprised of civilian and military personnel works to 
extend the reach of the government in regional provinces and 
local areas, we have not investigated how the PRTs in Iraq and 
Afghanistan are performing.
    Measuring the PRTs, it would seem to me, is an art and not 
really a science. As our witnesses' testimony reveals, each PRT 
faces a unique set of challenges that make it difficult to 
judge one against the other. As a result, success in Ninewa 
province in the northern region of Iraq may look entirely 
different from an effective PRT in Baghdad or Anbar province.
    The ethnic composition of a province, the relative 
permissiveness of the area, and the education and skills of the 
population are just a few variables that will shape the 
conditions and challenges a PRT will face and determine its 
potential for success. Thus, what may be a great success in one 
province may look like marginal progress when compared to 
another province. Nevertheless, as the Congress continues to 
fund PRTs, it is our responsibility to assess the effectiveness 
of the project.
    I would thank both of our witnesses. You have done an 
admirable job in completing this task.
    So finally, the subject of stabilization operations 
generally is critical to transitioning a local area from a 
combat zone to business and development zone or a quiet 
residential neighborhood. In my view, sufficient troop 
strength, combined with increasing the numbers of PRTs, is a 
formula we should continue to use to stabilize both Iraq and 
Afghanistan. The exact moment when the PRTs' work is done, 
however, is unclear, as these countries will be in a perpetual 
state of improving governments and increasing economic 
development. I would like our witnesses to comment on how they 
would determine when a PRT's work is done.
    Thank you very much for joining us.
    Thank you, Mr. Chairman, for another interesting hearing 
topic.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 34.]
    Dr. Snyder. Thank you, Mr. Akin.
    Your written statements are made a part of the record, as 
is your complete report, Mr. Bowen, from the very beginning 
introductory page to every attachment, will be made a part of 
the written record. When you are done with any oral comments 
you want to make, we will ask questions. We will put ourselves 
on a five-minute clock, and we will go in order of people here 
at the sound of the gavel, in the order in which they come in.
    We will put the timer on you so when the red light goes 
off, it will be at the end of five minutes, but we want you to, 
if you have other things to tell us beyond the red light 
territory, you go ahead and do that. That is primarily just to 
give you an idea of where you are at.
    So we will begin with you, Mr. Bowen.

 STATEMENT OF STUART W. BOWEN, JR., SPECIAL INSPECTOR GENERAL 
                    FOR IRAQ RECONSTRUCTION

    Mr. Bowen. Thank you.
    Good morning, Chairman Snyder, Ranking Member Akin and 
members of the Subcommittee on Oversight and Investigations. 
Thank you for this opportunity to appear before you to present 
the findings of our latest report on PRTs, a review of the 
effectiveness of the provincial reconstruction team program in 
Iraq.
    I am pleased to be joined this morning by the lead auditor, 
Pat Dickriede, who traveled all over Iraq and visited over 20 
of the PRTs and really did an outstanding job of putting 
together one of our very best audits, and a very important 
audit because, as this committee rightly has recognized, the 
PRT program is an essential element to success in Iraq.
    As SIGIR as described it in our quarterly reports, the PRT 
program is the most important nationwide--that is country-
wide--capacity building program the United States is supporting 
right now. Its focus is on building government capacity among 
the provincial councils and promoting recovery, economic and 
otherwise, within each of the 18 provinces.
    About $2 billion has been appropriated already by the 
Congress to support this program. Another $1 billion, roughly, 
is in the mix, and 600 persons have been identified and 
deployed on the ground or enroute to Iraq to work in this 
program. So this is a good moment to have a detailed review 
like this of what has happened and what has been achieved thus 
far.
    The PRT program is a civil-military integrated program run 
by the Department of State and the Department of Defense. It is 
a joint effort, an integrated effort to assist Iraq's 
provincial and local governments to develop democracy. That is 
the core issue economically, politically and otherwise. It 
employs integrated multidisciplinary teams composed to U.S. and 
Coalition civilian and military personnel to teach, coach and 
mentor provincial and local government officials in their core 
competencies.
    It has evolved since it started in November of 2005, when 
the first three PRTs were stood up in Mosul, Kirkuk and Hillah. 
As of this past August, the program comprises 10 PRTs from the 
original program, 7 provincial support teams which help provide 
additional capacity building in those provinces that don't have 
a permanent standing PRT, and 15 of the recently deployed 
embedded PRTs, or ePRTs, part of the surge program. Those ePRTs 
are focused primarily in Baghdad and in Anbar province.
    This report is our third one, and it provides a detailed 
review of what has been accomplished in each region and looks 
at each region's PRT performance in five areas: governance, 
rule of law, economic development, reconstruction and 
reconciliation. The core finding is that there is work to be 
done in developing effective and measurable strategic plans and 
milestones for the existing PRTs. That was a finding we had one 
year ago. It was renewed in our July report, and we renew it 
again here.
    The other finding we have is the need to coordinate 
Commander's Emergency Response Program funding within the PRT 
system, especially now that the quick reaction force funds, QRF 
funds, are moving out. These are the PRDC funds and others that 
will help build and recover each of the provinces.
    With respect to each of the subject areas that we looked at 
among the PRTs, in governance the prevailing theme was that the 
key obstacle was the failure of the council representatives to 
pass the provincial powers law. It is the enabling legislation 
that authorizes what the provincial councils and local councils 
will be able to do once stood up. It is a long-overdue piece of 
legislation and one of the five key elements that are currently 
being pushed by the embassy with the Iraqi government right 
now.
    Rule of law, it speaks for itself. It has been problematic 
for the last four years in Iraq. General Jones's report 
identified the challenges within the MOI at the national level. 
Those challenges, of course, filter down to the local level. 
When I was in Baghdad this last August, I met with a judge who 
complained about continuing intimidation, and that is not just 
in Baghdad, but it is elsewhere.
    Economic development, there is some progress there. The 
microloan program has been working reasonably well, and we have 
seen signs of new factories open and employment, but 
unemployment continues to be a key issue and will be essential 
to making progress.
    Reconstruction, the PRDCs continue to move forward on 
projects, continue to build their own capacity locally to 
execute and oversee key reconstruction elements. Political 
reconciliation, the PRTs played a significant role in the Anbar 
awakening, if you will, the fact that Anbar, once a place where 
the provincial council could not meet at all and the PRT could 
not even operate. They would operate from Baghdad, and now 
operate in Ramadi and progress has been made there 
significantly.
    This is a key update on what has been going on nationwide 
among the various PRTs. The staffing issues I know continue to 
be a concern of this committee and are a valid concern. The 
funding is appropriate to push this initiative forward, but for 
you to understand how they are doing, specific plans need to be 
developed for each PRT that provides metrics and milestones, 
and thus provide you feedback on that progress.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bowen can be found in the 
Appendix on page 37.]
    Dr. Snyder. Thank you.
    By the way, our ranking member, Mr. Akin, has 
responsibilities on another subcommittee so he will be jogging 
in and out of here.
    Mr. Perito.

 STATEMENT OF ROBERT M. PERITO, SENIOR PROGRAM OFFICER, CENTER 
    FOR POST-CONFLICT PEACE AND STABILITY OPERATIONS, U.S. 
                       INSTITUTE OF PEACE

    Mr. Perito. Good morning, Mr. Chairman. Thank you very 
much, members of the subcommittee. I appreciate the opportunity 
to appear before the subcommittee and to talk about the U.S. 
experience with provincial reconstruction teams in both Iraq 
and Afghanistan.
    I would like to share with you some observations that I 
have on the U.S. PRT program and some recommendations I have as 
to how it might be improved. I am required to say that these 
are my own views and not those of the U.S. Institute of Peace, 
which does not advocate specific policy positions.
    Provincial reconstruction teams, as we heard, are small 
civil-military units that assist provincial and other levels of 
government to govern more effectively and deliver essential 
services. The original PRTs were started in Afghanistan in 
2002. The idea was to combine Army civil affairs teams, called 
``chiclets'' at the time, with a force protection unit and with 
civilian representatives from government agencies. The idea was 
to provide a platform which would allow civilian government 
agencies to operate in secure environments.
    As we have heard, there are now 25 PRTs in Afghanistan 
operating under a NATO-led international security assistance 
force. These PRTs are led by the United States and 12 other 
NATO and Coalition partners, and another dozen or so countries 
contribute personnel, financial and material support.
    On November 11, 2005, Secretary of State Rice inaugurated 
the first of ten PRTs in Iraq. Unlike their counterparts in 
Afghanistan, these PRTs are mostly civilian, led by the State 
Department. They include private contractors and Iraqis. Then 
on January 10, the President announced the creation of ten 
additional PRTs as part of his New Way Forward in Iraq. These 
PRTs, so-called ``embedded'' PRTs or ePRTs, are part of 
military brigade combat teams that operate in Baghdad and Anbar 
province. In addition to the U.S. PRTs in Iraq, there are three 
PRTs that are operated by our Coalition partners, the U.K, 
Italy, and South Korea.
    It is difficult to discuss PRTs because there has been such 
a proliferation of styles and models. In Afghanistan, the U.S. 
practice was to establish PRTs and then hand them off to 
Coalition or NATO partners. The result has been a proliferation 
of different kinds of styles and models. For example, the 
German PRTs, in contrast to our own, have over 300 people, a 
very large civilian component, that operates very separately 
from a small and highly restricted military component.
    The U.S. has three models for PRTs. The Afghan model has 80 
personnel. All but three of them are military. Civilian 
representatives are from the Department of State, generally a 
junior officer or retiree, a USAID contractor, and a volunteer 
from the U.S. Department of Agriculture. The force protection 
unit is a U.S. National Guard platoon, and then there are two 
teams of civil affairs.
    In Iraq, the original ten PRTs were composed mostly of 
civilians from State, from the Justice Department, and from the 
Agriculture Department. The only military were a couple of 
civil affairs teams, some odd civil affairs soldiers that did 
jobs that no one else can fill, and somebody from the Army 
Corps of Engineers. There were also civilian contractors and 
some Iraqis that provided translation and other services.
    And then the new PRTs, the embedded PRTs, are very small. 
Each has a core group of someone from State, DOD, civil 
affairs, and a translator-interpreter cultural affairs adviser. 
And then there are from 8 to 12 civilian specialists who make 
up the team, and they operate as almost advisers to the 
commander of the brigade combat team.
    PRTs not only have different organizations, but they also 
have very different missions. In Afghanistan, the mission of 
U.S. PRTs is to extend the authority of a weak central 
government into the provinces where warlords and what the 
military called ``regional influentials'' have traditionally 
held sway. In Iraq, it is the exact opposite. The mission is to 
strengthen the provincial governments against the traditionally 
strong center.
    Beyond some rather vague mission statements for the 
embedded PRTs and talk about enabling moderates and dissuading 
extremists, there is really no agreement within the U.S. 
Government or between the U.S. and its allies on what PRTs 
should accomplish. The priorities and programs often reflect 
local conditions and obvious opportunities. There is no 
interagency-approved concept of operations for PRTs. The Army's 
lessons learned program recently published a PRT playbook on 
its website, but this playbook was not approved by the civilian 
government agencies State, USAID, et cetera that participated 
in drafting the document.
    PRT priorities, programs and effectiveness are strongly 
dependent on the personalities of those who serve on the teams. 
In the absence of an overall concept of operation doctrine or 
other guidance, personalities are able to determine what the 
teams do. It is also very important that personalities get 
along. In teams that gel, things go smoothly. In teams where 
people have their own agencies or can't get along for some 
reason, then things go very badly.
    The staffing of PRTs has highlighted a problem that affects 
our government particularly. U.S. civilian government agencies 
do not have any kind of surge capacity to staff PRTs or any 
other kind of post-conflict operations. This does not just 
involve providing bodies. It involves providing skilled 
specialists who are Federal employees with a broad range of 
critical skills who can go out and represent their agencies and 
do the job.
    In the new ePRTs, because the State Department did not have 
any people to take the civilian slots, the slots were filled by 
Army Reservists and members of the National Guard. State now 
has the funds to hire contractors, but the handover will not be 
completed until next summer.
    There is a myth that PRTs provide security because they 
involve military personnel, but this is simply not true. In 
Afghanistan, PRTs do form part of the ISAF general security 
presence, but PRTs have no offensive capability, and their only 
security mission is to protect themselves. The role of the PRT 
platoon is to provide convoy security when people decide to go 
outside the wire.
    PRTs in Iraq live on U.S. military bases and depend on base 
security and on U.S. military forces to provide their security. 
Under a February, 2007 MOU, State and DOD finally agreed, after 
a year of wrangling, that the military would provide convoy 
security for PRTs, but this was not before incidences where 
State was very disturbed to find that when convoys were 
attacked carrying PRT members, soldiers did what they were 
trained to do--they stood and fought--or that they combined 
escorting PRT members with patrols against insurgents.
    PRTs have contributed to improved governance and economic 
development in some areas. PRTs have been successful in 
facilitating cooperation between provincial governors, 
representatives of central government ministries, and elected 
provincial councils in Iraq. They also have been able to prod 
the central government to approve funding for provincial-level 
project proposals and to release funds so that projects can be 
implemented. Increasingly, PRTs are demonstrating that these 
efforts have resulted in improved conditions in provinces in 
Iraq.
    EPRTs, which operate at a sub-provincial level dealing with 
municipal and district officials, perhaps are just too new to 
be able to demonstrate such success. In Afghanistan, PRTs work 
with provincial governors and the provincial police chief on 
the general assumption that since these people are appointed by 
the central government, they represent President Karzai and his 
priorities and his programs. In some cases, this is true. In 
others where regional leaders or provincial leaders have their 
own agendas, then PRTs are either stymied or they use all their 
energy to try to get these officials removed.
    While PRTs vary in size, organization and function, they 
share several common problems which could be solved if they 
receive proper attention. The first of these could be 
summarized under the phrase ``improvisation is not a concept of 
operations.'' PRTs really need an agreed concept of operations 
and an agreed organizational structure with a single chain of 
command.
    In PRTs in Iraq, there is a bifurcated chain of command. A 
State Department official is responsible for political and 
economic issues. His military deputy is responsible for 
security and movement. There is no one in charge, thus no one 
to referee disputes. Even simple things like who gets the 
security escort to go out on a daily call can be an issue of 
some concern and dissension.
    The second problem might be summarized by the phrase, 
``Without agreed objectives, it is difficult to judge 
effectiveness.'' There is need for an agreed set of objectives 
for PRTs and an agreed set of measurements for measuring their 
performance. Absent a means of determining whether PRTs are 
effective, it is difficult to determine whether alternative 
mechanisms might better achieve our purposes.
    As one colonel in Afghanistan told me, ``Well, we just sort 
of look at the province. If it is doing well, we figure the PRT 
must be doing its job.'' The lack of means for evaluating PRTs, 
however, has not prevented their proliferation. As we have 
seen, there are five new PRTs operating in Iraq without any 
real judgment having been made or any real scrutiny applied as 
to whether this form of organization does a better job than 
perhaps others.
    The next problem might be summarized with the phrase, 
``Stability operations is not a game for pickup teams.'' U.S. 
civilian agencies need to recruit Federal employees with 
expertise and the skills required to staff PRTs. This is a new 
requirement for government service. The government needs to 
create the capacity to meet this need.
    Permanent agency representatives can serve and train 
alongside their military counterparts and represent their 
agencies. This is not possible using commercial contractors or 
relying on military reservists and National Guardsmen to staff 
civilian functions.
    If I could digress for just a minute, when I came into the 
foreign service way back in the late 1960's, in the midst of 
the Vietnam War, we were involved in something called the CORDS 
program in Vietnam. There were 15,000 AID foreign service 
officers at that point. Thousands of them and hundreds of my 
fellow foreign service officers served in CORDS in Vietnam. 
This is a capacity which we had and we have lost. We need to 
regain it.
    Finally, I would say that ``Silence is not a public 
information program for PRTs.'' The U.S. PRT program suffers 
from a lack of public information on the nature and the results 
of its efforts. Other than these very helpful reports produced 
by SIGIR, it is very difficult to tell what PRTs are doing. In 
the massive amount of media reporting that is going on about 
Iraq and Afghanistan, it is very difficult to find articles 
that are written about what PRTs are up to.
    AID recently has published a magazine called ``Iraq PRTs,'' 
both in English and Arabic, which talks about PRT operations. 
This is a commendable step forward, but long overdue. In this 
regard, I would like to express my appreciation to you, Mr. 
Chairman and to the members of the subcommittee for this series 
of hearings. I think it is very important to shed light on this 
operation and to raise questions about this program and to 
subject it to some kind of systematic analysis and scrutiny.
    Thank you very much.
    [The prepared statement of Mr. Perito can be found in the 
Appendix on page 48.]
    Dr. Snyder. Thank you both for your testimony.
    Our systematic analysis will be delayed for a few minutes 
while we go to vote. We have one vote. I will come back, and 
with the arrival of the first Republican member, we will begin 
our questioning. After that, we should have well over an hour 
before we are interrupted again.
    We are recessed.
    [Recess.]
    Dr. Snyder. We will come back to order here. We will go 
ahead and start the five-minute clock. If we don't have any 
other members return by the time my five minutes is up, I will 
just keep rolling.
    We appreciate your testimony. I just want to make a comment 
before I ask a couple of questions. I was struck I think it was 
a couple of weeks ago in the newspaper by a newspaper photo of 
an Iraqi man holding the body of his three-year-old son that 
was wrapped in a carpet. Apparently, the boy had been 
kidnapped, and I don't know what the result was, if this was 
what he received in return for a ransom, but anyway he ended up 
with the dead body of his three-year-old son. If you think 
about the expectation of people somehow trying to do economic 
development and raise a family and get their kids educated in 
that kind of environment.
    So I was struck in response to your report, Mr. Bowen, the 
suggestion that perhaps some people should be removed from some 
of these areas for security, and the embassy came back and 
said, ``No, they shouldn't; we think that our people need to 
keep working in those areas.'' I think it is consistent with 
the impression we had from some of these really fine people 
working on PRTs that they are very committed to what they are 
doing, and they understand the risks, and they understand that 
they can only do their job when they are out on the road. So 
once again, I commend them for their work.
    On page 34 of your report, it seems to be the whole gut of 
the thing. In fact, I think I will read it. ``We recommend the 
U.S. ambassador to Iraq and the commanding general MNF Iraq 
take these actions: number one, in an expeditious manner, 
jointly establish a comprehensive plan for the PRTs, including 
embedded PRTs, with elements tailored for each PRT.
    ``At a minimum, the plan should, (a), clearly define 
objectives and performance measures; (b), clearly define 
milestones for achieving stated objectives; (c), be linked to 
funding requirements; and (d), identify the organizations 
within each agency that are accountable for the plan's 
implementation.
    ``To provide senior-level attention to this issue, the plan 
should be approved by the office of the chief-of-mission and 
the MNF Iraq commander to demonstrate each agency's commitment 
to this effort; two, develop guidance on the use and 
synchronization of CERP funds to support the U.S. government's 
capacity development mission.''
    My question for both of you is, at what level should these 
clearly defined objectives and performance measures, clearly 
defined milestones, at what level in these agencies should this 
occur? This has been one of the concerns of the committee, I 
think, on the broader issue of a lot of folks in this town 
about the lack of coordination between different agencies. At 
what level should these kinds of objectives and performance 
measures and milestones be established?
    Mr. Bowen. Well, we raise it up a level here in our 
recommendation, asking the ambassador and General Petraeus to 
review it and sign-off on it to give it the authority that we 
think it needs, given that this is the third time that this, or 
a recommendation like it, has been put forward in our 
reporting.
    There is an Office of Provincial Authority over there 
already. It is administering the program. OPA was stood up in 
the spring, succeeding the previous organization, but it is 
still getting its own organizational sea legs. It has a new 
director as of six weeks ago. That is why it is important to 
get a higher level buy-in in-theater about how to measure the 
progress so ultimately you in the Congress can ascertain, is 
the PRT program achieving its goals.
    Dr. Snyder. Mr. Perito.
    Mr. Perito. As someone who has served about 35 years in the 
U.S. Government, including a stint on the National Security 
Council staff and at both State, Justice and Commerce, I 
believe very strongly that this should be done in Washington at 
an interagency level equivalent to, say, the deputies committee 
currently, if not the principals committee on the NSC.
    It is very difficult and perhaps somewhat unfair to foist 
this off on an embassy or on a field staff without Washington 
providing any kind of direction. I was invited to participate 
in the interagency working group that came up with the PRT 
playbook. I was struck by the fact that people at that level 
simply did not seem to want to engage. It just seemed too hard 
to them to do this.
    Based on my own experience in government going back years, 
this strikes me as somewhat unusual. In previous 
Administrations dealing with previous problems that also looked 
extremely difficult, the interagency engaged and decisions were 
made and they were brought to high levels of authority and 
signed off on by people with real responsibilities in their 
agencies. So I don't see why this should be any different. It 
is difficult, but why should this be any different. Without 
that, then people in the field are really left to their own 
devices.
    Dr. Snyder. I would like us to continue to have a 
conversation about this, because I can understand, Mr. Bowen, 
why you say what you said, which is different than what Mr. 
Perito said.
    Mr. Perito. But it is not inconsistent.
    Dr. Snyder. No, it is not inconsistent. I guess that is 
right. You could still have your Washington group and then have 
your group at that level.
    Mr. Perito. Right. It has to go out to the field. What is 
decided in Washington has to reflect input from the field and 
has to go out and be acceptable to the field.
    Dr. Snyder. We currently have wars in two nations and PRTs 
in two nations, Afghanistan and Iraq. If I understood what you 
said, that it ought to be at the General Petraeus-and 
Ambassador Crocker-level, then we are not going to have the 
kind of, I don't know if you want to say lessons learned or 
consistency. I mean, I recognize that Afghanistan and Iraq have 
some dramatically different challenges.
    On the other hand, I think we would all agree that there 
are lessons to be learned from work done in other countries, 
and if everything is decided at the country commander-level, 
don't we lose out on the kind of consistency or the lessons 
learned? Help me with that, Mr. Bowen, and your thinking there.
    Mr. Bowen. It is a great point. It is exactly what our 
latest lessons learned report is focused on, and that is the 
need--but this is a bigger need--to develop within the 
interagency a more effective approach, a more effective 
structure to taking on post-conflict contingency relief and 
reconstruction operations, of which the PRTs are a big part.
    If the story of Iraq reconstruction tells anything, teaches 
any lesson, it is that the U.S. Government is not well 
structured and was not well poised in 2003 to engage in the 
kind of post-conflict relief and reconstruction operations that 
we have faced for four years.
    Lessons have been learned. We have done three: one on human 
capital management, one on contract procurement, and the latest 
one on program and project management. They have been applied, 
but they have been applied along the way or ad hoc. That is not 
the way to run a post-conflict operation. In our latest lessons 
learned report released last March, and the focus or our next 
one--our capping report will come out next year--we be in 
putting forth the body of evidence that will allow this issue 
to be addressed and solutions to be developed.
    We will provide some recommendations on that, on how 
integration--we call it the ``beyond Goldwater-Nichols'' 
initiative--how the integration of agencies can be more 
effectively structured so that the execution of these problem 
doesn't have to be figured out while the problem is being 
addressed.
    Dr. Snyder. I know there is a lot of interest by members of 
this committee on that issue, as you are probably aware. Mrs. 
Davis and Mr. Davis from California and Kentucky have an ad hoc 
group, their working group on interagency reform, but it is to 
get at that. I think it came out at one of our hearings, but I 
think you discussed it some in your statement, Mr. Perito.
    When we met with some of our folks from Iraq and 
Afghanistan who were working on PRTs, one of their very 
specific--or at least one of them kind of overstated it--but 
just said, ``you need to change the names; we use 'provincial 
reconstruction team' in Iraq and 'provincial reconstruction 
team' in Afghanistan like they are doing the same work.''
    And they say, they are not. In their view--and this is from 
the people on the ground--the provincial reconstruction teams 
in Afghanistan were like project builders. They did bricks-and-
mortar projects. They did water projects, and it was all good 
stuff. In Iraq, folks felt like, no, what they were doing was 
kind of government capacity building, that they are helping 
other people decide, local people, how they are going to do a 
water project and find funding and sustain it and get it 
repaired and all that kind of thing. But they felt like they 
had dramatically--and ``dramatically''--I don't think it was an 
overstatement, it was dramatically different functions.
    And yet, I am not sure we are getting--and I don't think 
the American public understands that, and I don't think the 
Congress understands that--and that may come from what you are 
talking about, Mr. Perito, that we don't have that kind of 
whatever up-the-stovepipe somewhere interconnection coming 
across.
    Mr. Perito. One of the ways this works out is that you hear 
a lot of loose talk within government circles about, well, why 
don't we send a PRT off to this situation or that situation, 
with people not really understanding what you just said. And 
that is that PRTs are kind of amorphous. We really need 
something which is much more descriptive to describe the kind 
of capacities that we are going to provide. PRTs are a 
misnomer. That term is often misleading. In Iraq, many PRTs 
don't even work with provincial-level authorities.
    Dr. Snyder. Yes. That is a good point.
    Let's see. I have lost page 34. Mr. Bowen, this is your 
chance to educate us at a very basic level. I don't know what 
the difference is between a performance measure and a 
milestone.
    Mr. Bowen. A milestone is an interim achievement along the 
way to an ultimate goal--in other words, a chronology of 
milestones eventually leads to success. That is the plan. 
Performance measures are a finer calibration, perhaps, between 
milestones. They are related, obviously. It is about the PRTs 
doing what they need to do to achieve those goals. It has to do 
with the performance, the personalities involved.
    As we have seen, absent a strategic plan, the story in Iraq 
has been somewhat personality-driven, as Mr. Perito pointed 
out. Having more concretized performance measures and defined 
milestones will hopefully limit a personality-driven 
enterprise.
    Dr. Snyder. Before I go to Dr. Gingrey here--I will give 
him a minute to get his thoughts together--could the two of you 
put your heads together here and give me a couple of examples, 
let us say one from economic development and one from 
education, of a clearly defined objective, a performance 
measure, and a milestone?
    I will throw one out. If I am a PRT, my objective would be, 
I need to have a functioning educational system for grade 
school children to age 12, and then would some of my 
performance measure objectives be--I have to have in this area, 
I need 10 schools in secure areas, with teachers that are 
getting paid.
    Is that the kind of thing we are talking about? And then a 
milestone--I don't know what the milestone would be. I guess 
the milestone would be we actually made it through a school 
year, and everybody was safe. Is that the kind of specificity? 
I see some heads nodding behind you, so maybe I am not totally 
off-base here. Is that the kind of thing we are talking about?
    Mr. Bowen. Yes, sir, I think it is. I think the key element 
in this recommendation is they have to be tailored for each 
PRT.
    Dr. Snyder. Right.
    Mr. Bowen. The provinces vary greatly in north, central and 
south, by region, and by locale.
    Dr. Snyder. I am with you there. I just need to----
    Mr. Bowen. You are right. Concretizing it like that is 
good.
    Dr. Snyder. Because you are asking these groups in a very 
difficult environment to come up with things measurable, and I 
just want to get some specific examples, because I didn't see 
that kind of specificity in your statement. I assume that folks 
that do this work have an understanding of this kind of 
specificity. I just don't. But am I in the ballpark of what we 
are talking about? Mr. Perito, do you have any comments?
    Mr. Perito. Yes, although I want to kind of bring this down 
to what the realities are, particularly the realities in Iraq. 
Just looking at a report yesterday about PRT activities, the 
PRT in Kirkuk, its objective is to get the provincial council 
to meet. The provincial council has not met for a long time and 
there are divisions between the various ethnic groups in the 
provincial council.
    What the PRT has been doing is working with two of these 
groups, talking to them about how to do negotiations and 
actually has now gotten them to engage in negotiations, and 
they are working out an understanding between them so they will 
agree to come to a meeting.
    That is the level, I think, on which a lot of this work is 
being done. As one fellow from Fallujah told me, ``Our job, 
what we are doing now is we are trying to go out. Our rule of 
law work right now is we are going out and we are trying to 
find the judges that are still alive and still around, and get 
them to come to work.'' I mean, it is not in Iraq very often 
that we are setting up education systems. The PRTs are doing 
these very, very fundamental things.
    Dr. Snyder. But let us use that as an example. So your 
objective would be in this town, you want to have an ability of 
citizens to see a judge on a relatively regular basis--weekly 
or monthly or something like that. And your objective is, you 
have to find this many judges, be sure they are paid, be sure 
they are secure. And your milestone is going to be at the end 
of the year, have we had them meet 30 times in a year. Is that 
a reasonable way to look at that of thing?
    Mr. Perito. Or have we got a working court.
    Dr. Snyder. Have we got a working court, and what does that 
mean.
    Mr. Perito. These are very rudimentary, often.
    Dr. Snyder. I understand.
    Mr. Perito. At this point in Iraq, PRTs are working at a 
very rudimentary level, often.
    Dr. Snyder. Yes.
    Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    I want to thank the witnesses for being with us this 
morning. I apologize as usual for the break.
    Mr. Bowen, in your testimony, of course you were talking 
about the five measurements. I want to have you speak a little 
bit more to that.
    Mr. Perito, I really enjoyed your testimony as you kind of 
explained to the committee once again how these PRTs work, both 
first in Afghanistan, and then subsequently in Iraq, and then 
you explained the difference in embedded PRTs versus another. 
There are a lot of different models out there. We have heard 
about that from other witnesses, but I think you did a very 
excellent job of summarizing that for the committee, and I 
appreciate that.
    Inspector General Bowen, the first report, I guess, and you 
were asking for both the Departments of State and Defense to 
get some metrics and some measurements that we could evaluate 
in a better way. I think that was back in October of last year, 
so here we are October of 2007, a year later. It seems that we 
are not really getting the kind of information that we need in 
regard to performance.
    One of you testified that it seems that the measurements 
are based almost anecdotally on the personalities of the 
different PRTs, particularly civilian members. Of course, you 
have these different models in the two countries, and even 
within the country of Iraq, you have these two different models 
of the embedded being so different from the original ten that 
we created.
    So I want some information on why we don't have good 
metrics to measure, and not just hoping that the personalities 
gel, and you get good people, and they all get motivated and 
they are fired up and it is a good team and they do a good job, 
but you don't really have any standards of measurement. So you 
have bad personalities that don't gel, and they don't 
accomplish anything and maybe make matters worse.
    I think I probably would have done very well in the 
military because I like rules and regulations and standards of 
behavior in regular order. I don't see that we really have that 
yet in these PRT teams. So I would like for both of you to 
speak to that.
    Mr. Bowen. You asked directly the core finding of our 
audit. It is full of information about what the PRTs have done, 
but that is not helpful in to unless you have some standards to 
determine whether those activities have achieved milestones, 
have achieved the goals of the PRTs. That, as you rightly point 
out, was our recommendation of a year ago.
    I would like to have been able to come today and tell you 
that those plans have been developed and those metrics are 
being applied, but they haven't. Our audits speak for 
themselves, and it is information for you that that is job one, 
I think, for the new OPA director to ensure that there are 
well-tailored, clear, fundamental metrics, measures and 
milestones for measurement of how the PRTs are doing.
    The other important issue is that it is not one-size-fits-
all. As you noted, first of all there are two very different 
groups. The ePRTs are reporting to the battalion commander and 
are part of the surge element. The original ten PRTs are 
carrying out their mission, that is governance-oriented 
capacity building. And so the tailoring has to be very 
specific.
    Mr. Perito. Yes, I think in order to establish metrics, you 
first have to establish objectives. You have to know where you 
are going before you can measure where you got there or not. As 
we have discussed before, there really are no objectives for 
this program. And so beyond a rather vague series of mission 
statements and beyond things like ``bolster moderates, assist 
with counterinsurgency'' and things of that general nature, 
there really are no objectives here.
    I had a conversation which I thought was very instructive 
yesterday with someone from the State Department who said, 
``Well, we now have a metric. We have demonstrated in Iraq that 
PRTs can be very effective at the provincial level in assisting 
the Iraqis to go through the budget process, produce proposals, 
take them up to the center, get the center to release money, 
and actually have the money come down to the provinces and 
distribute it. Now we have a metric. We can say this proves it 
works.''
    Well, you know, that is sort of circular reasoning. What 
they discovered sort of through trial and error is that PRTs 
can do this, and it is very useful and it helps, but that is 
very different, and that is not really a metric. That is just 
kind of, well, you know, through trial and error we have done 
this. Now, that is very useful, but maybe you should be doing 
other things.
    It takes a kind of objective top-down view, like we have 
talked before, of setting objectives, deciding what PRTs should 
be doing, are we best utilizing these resources that are 
available, and then coming up with measures to see whether we 
have achieved these objectives.
    Dr. Snyder. Mr. Akin for five minutes, followed by Mrs. 
Davis.
    Mr. Akin. Thank you, Mr. Chairman.
    I am sorry. I have these committees going on at different 
times, and I missed some of your statements.
    It seemed to me that what you are saying would probably 
help at least in certain ones of the PRTs to have a very 
clearly defined statement up front that this is what we are 
trying to do, and this is some way of measuring. I used to do a 
lot of that when I worked in the business world.
    Even things that are simpler, like one of the things I was 
responsible for was railroad tracks and a steel mill. Well, you 
know, if you have a lot of trains off the track, you know 
something is going wrong, and you would think that is something 
you could measure.
    But even so, trying to put specific measurements and 
everything on it can be pretty tricky. I think that it would be 
even more so with the diversity of the different environments 
where these PRTs are working. That shouldn't be an excuse for 
not having a clearly defined mission, though.
    Are the PRTs that are--and I don't know where we came up 
with this ``capacity building'' word; it sounds like political 
correctness to me. I mean, we are just trying to help stand up 
local governments, I gather. Those PRTs that do that, who do 
they work for?
    Mr. Bowen. They work for the chief of mission. The ten 
original PRTs that are in the provincial support teams have PRT 
team leaders that report.
    Mr. Akin. What is the chief of mission? Who is the chief of 
mission? What does that mean?
    Mr. Bowen. The ambassador.
    Mr. Akin. So that is going through State, then?
    Mr. Bowen. That is right.
    Mr. Akin. Okay. In this case, that would be Ambassador 
Crocker?
    Mr. Bowen. That is right.
    Mr. Akin. So these ten teams all report directly to him?
    Mr. Bowen. Through the OPA. There is an ambassador-level 
appointee who works for Ambassador Crocker who runs the 
program.
    Mr. Akin. Okay. So in other words, there is an in-between 
guy?
    Mr. Bowen. Yes.
    Mr. Akin. That is the chain of command for these.
    Mr. Bowen. That is the program. That is right.
    Mr. Akin. Now, is there a clear-cut definition for what 
they are supposed to be doing, written down on paper somewhere?
    Mr. Bowen. There is a generalized objective, as Mr. Perito 
pointed out, that is a bit vague, to use his term, but what is 
missing, what the core of our finding is that there are not 
comprehensive plans for what the PRT should be doing to achieve 
building the capacity, which is really, as you say, teaching 
the Iraqis how to do local government.
    Mr. Akin. In addition, did I gather from just before we got 
called out at the bell, is it also true that the financing that 
comes from the parliament and the central government is 
completely at their discretion, whether they are going to give 
that to the local provinces?
    Mr. Bowen. If it comes from the minister of finance?
    Mr. Akin. Right.
    Mr. Bowen. About $6 billion, as I recall, is allocated and 
has been distributed. That is an area of progress, as our 
report points out--budget execution, another term of art--how 
are the provinces doing in spending the money that is 
committed.
    Mr. Akin. Here is my question. To put it in our terms, if 
the Federal Government controls all the money, then the state 
government basically, they are just going to be a lapdog for 
whatever the Federal Government wants. So my question is, is 
there in the distribution of the oil money to the local 
provinces, is there a guarantee that they are going to get a 
certain percent of the cut based on population or something, so 
that they can start working federalism? Because federalism 
doesn't work if your local government, every last penny they 
get is coming out of the centralized government. Is that 
problem being dealt with?
    Mr. Bowen. That is the revenue distribution portion of the 
hydrocarbon law that has yet to be passed by the council of 
representatives. They are using an interim measure now.
    Mr. Akin. Yes. So there is no federalism until that gets 
fixed, is there?
    Mr. Bowen. That is right. And then next year when the 
regions law kicks in, a very much strengthened federalism will 
occur in Iraq.
    Mr. Akin. Say again?
    Mr. Bowen. There is a provision in the constitution for the 
formation of regions that will concentrate power in two or more 
provinces that choose to form a region.
    Mr. Akin. So that is going to become even more centralized?
    Mr. Bowen. No, that will decentralize.
    Mr. Akin. It will decentralize it?
    Mr. Bowen. Yes, sir.
    Mr. Akin. Okay. Is there anything in their constitution 
which specifically forbids the central government from doing 
certain functions so that you can guarantee, for instance, 
police and hospitals and schools or whatever are done locally, 
as opposed to centrally? Or do we not have any limitation on 
what the central government can do?
    Mr. Bowen. Those limitations will accompany the formation 
of regions. So when the regions law begins, that sort of dual 
system like we have, divided federalism, will begin to develop.
    Mr. Akin. Is there anything in the constitution which 
guarantees certain areas to be local responsibility, as opposed 
to be central, or not?
    Mr. Bowen. I don't know if it is that specific with respect 
to regions. I will have to get back to you on that.
    Mr. Akin. I am just trying to get a handle on how you drive 
federalism in that environment.
    I am out of time, and Vic is going to throw one of his 
hammers at me.
    Thank you.
    Dr. Snyder. No.
    In fairness to Mrs. Davis, I need to let her know that I 
quoted her in my opening statement, and then referred to you 
and Mr. Davis and your ad hoc working group on interagency 
reform, because you asked a question at one of our hearings 
about how do you measure this stuff.
    You mentioned, I think, metrics, Mr. Perito. I was in a 
discussion several years ago at a full committee hearing. I 
think it was Secretary Rumsfeld, and he used the term 
``metrics,'' and I thought he said ``matrix,'' and we had like 
the movie with Keanu Reeves. And he talked about his metrics 
room, and I thought he was talking about a room like in the 
movie ``The Matrix.'' We start pretty basic here in the House 
of Representatives.
    Mrs. Davis for five minutes.
    Ms. Davis of California. Thank you very much, Mr. Chairman. 
I appreciate your reference, and I am going to read it in a 
minute so I know what you said.
    Thank you very much for being here. I know that the issue 
of metrics and how we evaluate it has been addressed. I am not 
sure that it has been addressed thoroughly, but I wanted to 
just go to another question for a second.
    Mr. Perito, you mention that this should not be a game for 
pickup teams, and we should have a surge capacity. You have a 
lot of experience in multiple agencies. How would you do this? 
And also you mentioned that Germany has about 300 folks on the 
ground doing this. How do they organize this? Is there anything 
that we can learn from that?
    Mr. Perito. Just to take the first one, I have long 
believed that what the United States government means to do, 
and it can be done by the State Department of it can be done by 
a group of agencies, is that we need to recruit professionals 
who have these skills, who are a part of the Federal 
Government, Federal employees that we deploy in times of need.
    The Office of the Coordinator for Reconstruction and 
Stabilization in the Department of State now has a plan to do 
this. The plan calls for the creation of an active reserve 
corps, which will be made up of civil servants, of Federal 
employees who would have these skills, be located around 
government agencies, would be on call, and could deploy 
rapidly. The money for that, unfortunately, is being held up by 
the Senate at this point, so that plan isn't going forward.
    That active reserve corps would be supported by a civilian 
reserve corps composed of Americans from across the country who 
would be trained, equipped and prepared to deploy on a more 
lengthy timetable. All of this reflects some work that I did 
and the USIP did several years ago, which recommended that this 
kind of capacity be created. So there are plans and they need 
to be actualized and they need to be funded, and they need to 
be funded at a level where we would have several thousand 
people ready to go. Right now, the plans call for 200, I think. 
So that is one answer to this.
    When you look at the way other countries approach this, 
other countries bring to the PRT equation their own strengths 
and their own weaknesses. The German PRTs reflect the strength 
of the German economic assistance programs, and so you have 
this large economic assistance team.
    They also reflect the weakness of the military component. 
On the German side, the German military component in 
Afghanistan is highly caveated and there are very few things 
that it can actually do. One of them is take risks at all. So 
the German military hardly goes out. That is not because they 
are not brave, but just because they are heavily restricted by 
their own government.
    Ms. Davis of California. When you think of this reserve 
corps, are these people who would sign up and would have every 
two months that they would be coming together and doing some 
training across the board?
    Mr. Perito. Yes, this concept is still kind of unfirm at 
this point--that is not a word, probably--but the idea would be 
that these would be people who would have required skills. They 
would sign Federal contracts. They would be available to 
deploy. They would be trained and equipped. They would exercise 
to the point where they would be able to function together, and 
then they would move out.
    But more important than the civilian corps, which I think 
is critical, is this idea of creating a corps of Federal 
employees who have these capacities and who are there working 
in the government and on call and can go. That is something we 
just don't have at this point.
    Ms. Davis of California. And you said the funding has been 
tied up.
    Mr. Perito. Yes.
    Ms. Davis of California. Also, it is the will, too. Is it 
because we can't quite envision this group of people doing this 
or putting them at risk in some way? What do you think is 
underlying the fact that we have not been able to get this 
together?
    Mr. Perito. Specifically, as I understand it, and I haven't 
checked in the last week, there is a single senator who has a 
hold on the money. There was $50 million in the Iraq 
supplemental that was provided to stand up this capacity. The 
bill required that an authorizing bill be passed as well, along 
with the appropriations bill. The authorizing bill has been 
held under a Senate hold now. The Administration has not been 
able to get the senator to release it.
    Ms. Davis of California. What I am really asking, though, 
is this has been going on for a number of years. It isn't just 
probably the senator. Part of it is education.
    Mr. Perito. And part of it--to go to a larger perspective--
political will is a critical element here. We have not had the 
political will to go forward and create the kind of civilian 
agency capacity that we need. We do a very good job on the 
military side. The U.S. military spends a great deal of time on 
lessons learned and on improving its performance. We have the 
best military in the world.
    Civilian agencies in post-conflict have operated on the 
assumption that this is a one-time thing and they are never 
have to do it again. They were that way in Somalia and in Haiti 
and in Bosnia and in East Timor and all the other places that 
we have been. And now we are paying the price.
    Ms. Davis of California. May I ask, Mr. Chairman, we have 
people who decide to go into USAID. They have development 
backgrounds. We have people who go into the Peace Corps, 
obviously. Is there something about incentivizing young people 
to think in this way? Or is that not the path? Is it just 
people who are already in a capacity already, that have the 
skills?
    Mr. Perito. I don't really think it is a matter of getting 
recruits. I think it is a matter of the size of these 
institutions. USAID right now has 1,200 foreign service 
officers. That is barely enough people for all of its jobs 
worldwide. That is barely enough people to provide people to 
every embassy.
    When you go out to PRTs in Afghanistan and you meet the 
USAID rep, it is very likely to be a contractor, generally a 
young person, terribly enthusiastic, extremely brave, but brand 
new to the field, not able to draw upon expertise; not able to 
draw upon associations with the agency, a deep knowledge of how 
USAID functions, with a huge, steep learning curve. And that 
you find across the board.
    And so, what we need to do is increase the capacity of 
these agencies. The foreign service of the United States can 
staff only 75 percent of its jobs worldwide. It just doesn't 
have enough people. They do a very good job of staffing Iraq 
because there is a lot of emphasis on this, but the Foreign 
Service Association told me the other day that 40 percent of 
the foreign service has already served in Iraq.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Thank you.
    We will go around again, gentlemen, if you want to start 
the five-minute clock again.
    Just a follow-up question, Mr. Perito, from the line of 
questioning Mrs. Davis was going. We had a hearing earlier in 
the week about this whole issue of staffing and the issue of 
the civilian reserve corps came up. In your statement, you 
specifically were critical of using military reservists.
    Now, I can understand that kind of across the board you 
don't want the Army Reserve and Marine Corps Reserve to be a 
substitute for trained people. But in fact, we have certainly 
had occasions where military reservists might be the perfect 
person.
    We have a mayor of a fairly vigorous, rapidly growing city 
who has been mobilized more than once, and I suspect he has 
some pretty good thoughts on capacity building. Now, he was not 
selected for a PRT, but just because somebody is a military 
reservists rather than a civilian reserve corps, they may in 
fact--you know, we have had thousands of guard and reserve 
members over there at any one time.
    They may in fact be the perfect people for some of these 
tasks, would they not? They certainly would have a different 
background than your 23- or 24-year-old who has been in the 
military for 4 or 5 years. Is that a fair statement?
    Mr. Perito. It is a fair statement.
    Dr. Snyder. I assume what you are saying is that we should 
not rely on somehow having guard and reserve.
    Mr. Perito. But there are other considerations which go 
beyond what you said, which is true. Police is the area I know 
best. In the beginning in Iraq, when we activated the guard and 
reserve to get police officers, we got people who, in their 
civilian lives, were police officers. Those people came, and 
they served once.
    Now, when you look at the police transition teams in Iraq, 
you will find military police. They are mostly guard and 
reservists. They were artillerymen before they were given a 
two-week training program and made military police. These 
people are not police officers.
    The fact is that you can get on a one-time basis the person 
you need for the job, but over a five-year effort, you end up 
with people that are--you know, the classic is the guy who is 
sent off to advise the provincial education representative, and 
while he works in education, but he is a schoolteacher. And 
that happens again and again.
    Dr. Snyder. Right. I understand what you are saying.
    Mr. Perito. Yes.
    Dr. Snyder. One of my towns a few years ago had both their 
mayor and their police chief mobilized in the same unit.
    I am thinking of how to pursue this. At the hearing a 
couple of days ago, we had representatives from different 
agencies. I don't know if you heard anything about that, but we 
had in the written statements of the persons from the 
Department of Agriculture and the person from the Department of 
Justice talking about--this was a hearing on the incentives for 
their civilian folks to go to Iraq and Afghanistan, not just in 
PRTs, but in other capacities as well.
    There was a paragraph that I go onto him a little bit 
about, because it had the exact identical language in both 
paragraphs that they acknowledged had apparently come from an 
National Security Council staff person who reviewed the 
testimony and inserted that language and suggested that 
language. I actually have no problem with the language.
    I am going to read it again and see if that is the 
direction you think that we should be going in, Mr. Perito, and 
any thoughts you have, Mr. Bowen: ``To improve our ability to 
respond to overseas challenges and provide the personnel 
expertise needed will require that we increase our numbers of 
available, trained and deployable personnel within our 
department and others, and that we support them with a 
structure in Washington that conducts planning and 
coordination.''
    And then in this particular situation, this one means 
Agriculture, but the other one was Department of Justice. 
``Agriculture is working with interagency partners and the 
coordinator for reconstruction and stabilization at the 
Department of State to build that capacity and to support 
development of a civilian reserve corps of outside experts that 
we can also call on to fill additional requirements.''
    Well, basically we came out of that hearing and we had both 
the Department of Justice and Department of Agriculture and 
apparently NSC thinking this should be as a fairly strong 
statement of where we ought to go. But I read two things into 
that, or three things into that. One, civilian reserve corps--
everybody seems to be behind that, although it is still being 
fleshed out--but then the first sentence was we need to 
increase our numbers, a redundancy.
    I talked with Richard Armitage, who said there needs to be 
redundancy so that when you pull people for emergencies that 
come up, you are not gutting the mission in Africa or China or 
Latin America or wherever it is. But that is different than a 
civilian reserve corps that actually has people working in 
agriculture projects in Mongolia that you can pull out and say, 
``We have to have you now for the next year.''
    And then the third part of that, which I think gets back to 
the questioning some time ago, where it talks about ``we 
support them with a structure in Washington that conducts 
planning and coordination,'' which may get to the guts of your 
report, Mr. Bowen, which is, your criticism today and your 
suggestions may reflect the fact that we don't have the 
structure in Washington that does the kind of planning and 
coordination, still sensitive to on-the-ground decision-making 
and the kind of vagueness of some of these relationships in 
provinces and so on.
    I am not sure what kind of structure we are working on 
right now in Washington. You may not have any comments about 
anything I have said, but if you want to comment on that. Was 
that paragraph a pretty good paragraph, from the written 
statement?
    Mr. Perito. If we had that capacity----
    Dr. Snyder. Maybe you had that in your written statement, 
too, Mr. Perito, and I missed it. I don't know.
    Mr. Perito. No. But in other things I have written, yes. If 
we had that kind of capacity, it would be excellent. There 
needs to be a place in Washington that has the authority to 
coordinate post-conflict interventions, particularly on the 
civilian side, and to be a partner to the military, which we 
don't have right now.
    There is no place in the Federal Government where you can 
go and have somebody who can say, ``Yes, I can bring together 
all of this expertise and all of this capacity and deploy it 
and direct it.'' That doesn't happen. We have debated about 
where this should be located, but my personal preference is it 
should be a new independent agency, which would be created with 
its own culture and its own staff, and would be made up of 
professionals who do this professionally.
    We would do it over time, so you would have the benefit of 
people who gained experienced moved up in the ranks and could 
direct these operations. Currently, what we do is we rely on 
contractors. Contractors come and go. The firms change. There 
is no residual. There is no learning that takes place. Or we 
don't do it at all, or we pass it off to the military, which is 
unfair because it places ever-increasing burdens on the 
military and forces them into areas where it is just not their 
expertise.
    Dr. Snyder. You made a pretty strong statement. There is no 
place in the Federal Government where that is being done now.
    Mr. Bowen, do you have any comments before we go to Mr. 
Akin?
    Mr. Bowen. Yes, that is exactly the point of our lessons-
learned program and our latest report recommends addressing 
this. Our next report will present that kind of recommendation 
to the Congress to create a new entity. If it is a balkanized 
problem, we want to beware of a balkanizing solution.
    NSPD-44 creates SCRS and has done some good things and our 
lessons-learned report supported their civilian reserve corps 
efforts, but 3000.05, the DOD parallel directive, also is 
moving forward with bolstering the Department of Defense's 
approach to post-conflict relief and reconstruction issues, a 
new entity that coordinates those elements and brings them 
together, and the other agencies' interests as well.
    It is not just AID, State and DOD. Those are the primary 
players, but as you learned, Ag and DOJ have interests as well 
and they need to be addressed appropriately and filtered in. 
SCRS has done good work, but it is still awaiting authorization 
of its own and its own appropriation. That has been a 
continuing challenge for it. So we will continue to speak to it 
through our lessons-learned project.
    Dr. Snyder. Mr. Akin for any further questions.
    Mr. Akin. Thank you, Mr. Chairman.
    I didn't hear anything, Mr. Bowen, just at a gut level, 
taking off the very specific measurable things. What is your 
sense of how the PRTs are doing? You probably have seen more 
and looked into it pretty far. Do you feel like just a little 
American ingenuity is being applied and that we are making some 
progress, even if that is a little bit checkered or varies a 
little bit from place to place? What is your overall gut sense 
as to how we are doing?
    Mr. Bowen. Absolutely, our report demonstrates areas of 
progress within the PRT program. There is no doubt that the 
progress in Anbar is attributable in part to the work of the 
PRT out there. The microloan process, which is helping employ 
Iraqis locally and get businesses started up, is having an 
effect.
    The provincial reconstruction development councils, which 
are Iraqi group-managed and advised by the PRTs, are approving 
and submitting projects to the embassy for Iraqis to manage and 
construct in their provinces. That is $1 billion in U.S. 
construction aid that they are helping to decide how to spend. 
A key lesson learned is get buy-in from the host nation to 
ensure that what is being provided is what they need. So I 
think that the PRTs just in those three instances, as our 
report points out, are making an enormous difference.
    The other issues on federalism I wanted to follow up is the 
provincial powers law, as I alluded to in my opening statement, 
is a key element to promoting federalism locally. They need to 
have that law passed so they know what their powers are.
    Mr. Akin. So that is not defined yet either. That is all 
part of that whole piece that has to come together. Are they 
trying to bite off too big a political project of doing that? 
Can they break it into pieces or not? I mean, we have that 
problem here in D.C. Sometimes we say, well, we are going to 
fix all of Social Security or we will fix all of Medicare or 
something, and the thing just gets too weighty and basically it 
would be probably better to surgically go in and fix different 
pieces.
    Mr. Bowen. They have broken them up into pieces for the 
hydrocarbon law, which has the revenue sharing issue you were 
talking about; the provincial powers law which defines local 
powers; and constitutional reform; provincial elections are a 
key element that needs to happen. But the challenge is none of 
the pieces, other than de-Baathification, and it is not moving 
very fast. It is moving forward.
    Mr. Akin. Okay. But your bottom line is you are saying you 
do think the PRTs are providing valuable service.
    Mr. Bowen. Yes.
    Mr. Akin. There are very measurable successes in various 
areas, maybe not as well coordinated or defined as it might be. 
Is that a fairly accurate assessment?
    Mr. Bowen. That is very accurate. The challenge, of course, 
is the lack of a permissive environment. The place where the 
PRTs are struggling the most is in the south, as our regional 
recommendation alluded to. The Basrah PRT is having to work 
from the airport because of the dangerous situation in that 
very large city, and is having minimal impact at this point.
    Mr. Akin. I thought the south was one of the safest areas. 
How far south are you talking about?
    Mr. Bowen. There are parts of the south and the mid-south 
that are safe, but Basrah is not.
    Mr. Akin. Is that Sunni?
    Mr. Bowen. That is Shia.
    Mr. Akin. Shia.
    Mr. Bowen. It is intra-Shia factions that are fighting 
there.
    Mr. Akin. Okay. They have to have some level of--there has 
to be some kind of civilization before these people can get out 
and make the contacts and all.
    Mr. Bowen. That is right.
    Mr. Akin. Right. Thank you very much.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mrs. Davis for five minutes.
    Ms. Davis of California. Thank you, Mr. Chairman.
    You just mentioned al Anbar. I was wondering, have the PRTs 
been able to help bridge the gap between what is happening 
there with the local efforts and the government as a whole, and 
the Iraqi government? Is that part of their role at all? What 
specifically have they done to help bridge that gap so that in 
the end you do have that movement?
    Mr. Perito. It is my understanding that one of the things 
that PRTs have been able to do in al Anbar is get the central 
government to respond to requests for funding from the 
province, in what was a very strong reluctance on the part of 
the central government to respond to al Anbar because of the 
Shia-Sunni divide. PRTs have been able in some circumstances to 
overcome that and get the central government to release funds 
down. That is one of the things that PRTs can do effectively.
    Ms. Davis of California. Is that because they are educating 
people to ask for those things?
    Mr. Perito. Well, one of the things they have been able to 
do, the PRT in Ramadi, for example--the big provincial-level 
PRT, not the ePRTs, but the original one--a year ago had six 
people in it. It was a non-permissive environment and they were 
able to do very little.
    I talked to somebody who was there a month or so ago, and 
he said, ``Now, we are up to 25 people. The environment is 
permissive enough that we can get out. We are getting the 
provincial council to move back from Baghdad to the province. 
We are trying to reconstitute the judicial system and the 
police and get the organs of government up and functioning.'' 
So that is one thing that the PRT has been able to do. So yes, 
they are effective there, and that is the sort of thing the PRT 
can do.
    Ms. Davis of California. I missed some of the discussion 
about metrics. What role do you see public opinion polls 
playing? There are public opinion polls that seem to state 
generally that people don't necessarily like our presence. But 
in areas in which PRTs are actively involved, what is the reach 
there?
    If you went in to a PRT area that you thought was pretty 
successful, would you expect those opinion polls to be a lot 
different? Do they do them? Do they use them as a tool to try 
and register generally what is going on? How far does it spread 
in terms of people's general sense?
    Mr. Bowen. I don't think that PRTs are doing polling 
themselves, but I think it is an idea to consider, to judge the 
impact locally. But it wouldn't be a metric. I think it would 
just be another element of feedback for the PRT team leader to 
see that the 50 projects that the provincial reconstruction 
development council approve and execute actually help change 
the community spirit with respect to how things are going with 
respect to the council, not the council, not the PRT, but with 
respect to how the council is doing its business--the 
provincial council.
    Ms. Davis of California. And are you saying that they 
probably don't have much idea about that right now? That they 
haven't done that kind of base----
    Mr. Bowen. The PRTs don't do polling, and part of it is 
simply the non-permissive environment. But it would be useful 
feedback for the provincial councils, I think. In many areas, 
the PRTs have to be careful about revealing themselves and 
revealing an American face on any project that is U.S.-funded 
or ongoing because of the potential controversy and conflict it 
could stir.
    Ms. Davis of California. Yes.
    Mr. Perito, did you want to comment on that?
    Mr. Perito. Yes. I think that overall, public information 
and public affairs programming for PRTs has been a shortcoming. 
In the Iraq PRTs, there is supposed to be a State Department 
officer who has that responsibility and whose job is to get the 
word out. Sometimes that officer is present; sometimes he is 
not. There is no counterpart in the Afghan PRTs at all.
    One of the things that, of course, PRTs try to do is they 
try to put an Iraqi face on success. So in a certain sense, 
that masks their participation. But I think in terms of just 
getting the word out about what the PRT program has 
accomplished, that has not happened.
    I find it very difficult in Washington to actually find out 
what PRTs are doing, and I am sort of inside the government and 
very often get invited to government meetings. But it is not 
open. So I think public affairs could be something we could do 
better.
    Ms. Davis of California. You are saying that it is a pretty 
well-kept secret. It sounds like a well-kept secret there. It 
is also a well-kept secret here. Is that by design, to again 
not have an American face on that?
    Mr. Perito. No, I don't think it is by design. I think it 
is by a sort of inadvertence. It is something that people 
haven't focused on, but should.
    Ms. Davis of California. Thank you very much.
    Dr. Snyder. We have been joined by Mr. Cooper from 
Tennessee, for five minutes, for any questions you may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    I would like to continue the gentlelady's line of 
questioning. How do I explain to my taxpayers back home that 
the American face on a project makes it unappreciated? They 
would probably say that it is like people biting the hand that 
is feeding them. They would probably say, ``Why are we doing 
this?''
    Now, we don't need to stick our chests out and want too 
much credit, but is the United States reduced to being the 
world's anonymous donor today? So we get no credit for anything 
and it makes everybody happier? People are out there risking 
their lives in these PRTs to help people and we can't say they 
are U.S.? You certainly can't wear a uniform because that would 
militarize it.
    This is an untenable situation. So why are we doing it? We 
are humanitarian. We are good folks and we want to help the 
world, but if they don't want the help. In fact, an economist 
would say decrease their marginal utility or something. If they 
actively despise us for it, why are we there?
    Mr. Bowen. To the extent that that is answerable, I would 
say that it depends on the region in Iraq where the PRT 
presence is. Just by definition of how the PRT program is 
structured is reflective of the difficulty of being there. In 
the south, there are very few permanent PRTs.
    They are supported by the provincial support teams, the 
PSTs, because of the danger of a U.S. citizen traveling across 
the country. It is not just being disliked. It is being shot. 
That has been the struggle in Iraq with respect to 
reconstruction for four years.
    Mr. Cooper. I know in the scheme of things with government, 
it is a relatively small amount of money. For our own self-
image and self-esteem, we would probably do this because we 
perceive ourselves as the good guys. But if so few other people 
do, particularly the folks that we are directly trying to help, 
isn't this counterproductive?
    Mr. Bowen. Well, I think that it is a cost-effect balance, 
is the question that you are asking. Our report catalogues a 
series of successes as well, in light of all these limitations. 
I think the PRT program is aiming at building democracy at the 
grassroots level by teaching provincial councils, which didn't 
exist before in Iraq, how to do local government.
    That, in conjunction with trying to build some sort of 
local capacity to plan a recovery and reconstruction program, 
and then sustain it--a continuing weakness--are all worthy 
goals of the overall PRT objective. The point of our audit is 
those goals need to be better defined, better tracked, and 
better measured.
    Mr. Cooper. You are speaking as an auditor. I am detecting 
a marked chamber-of-commerce attitude here. I love chambers of 
commerce, and they work well in America. I am not sure they 
work well overseas. For example, corruption--it is endemic, and 
we are not going to eliminate it in our lifetimes. We are the 
infidel. We are not going to persuade them otherwise in our 
lifetimes. Other things--tribal, ethnic relations matter far 
more to them than they do to us, and we are not going to change 
that in our lifetimes.
    It almost seems like we are doing this for our own 
purposes, and not to actually have an impact. If we wanted to 
have an impact, we would have to channel the aid through third 
parties and have no U.S. fingerprints on it, no U.S. presence, 
and have it delivered by non-infidels. This is a strange 
situation we are in. I am not aware of in history an effort 
that is so unappreciated, in fact actively scorned. Has anyone 
proposed terminating it, the PRTs?
    Mr. Bowen. No.
    Mr. Cooper. At least in those areas where----
    Mr. Bowen. Oh, yes. We did in our original draft report. We 
proposed pulling personnel out of the dangerous areas in the 
south, but as a result of the responses we got from MNFI and 
from the embassy, we modified our recommendation.
    Mr. Cooper. So you yielded to their pressure?
    Mr. Bowen. No, we were persuaded that they have a plan that 
is calculated to succeed, and therefore it is worthwhile to 
keep those open for now.
    Mr. Cooper. The chamber of commerce-type plan that is 
completely not understood in many parts of the world.
    I see that my time has expired, Mr. Chairman.
    Dr. Snyder. Thank you.
    Why don't we go ahead and start the clock again.
    I wanted to ask, and I have several questions that may not 
take so long. Mr. Bowen, not in your report, but in your 
written statement you made mention of the five of your folks 
that were wounded or injured. Were all those U.S. Government 
employees?
    Mr. Bowen. Yes, they were.
    Dr. Snyder. Were you satisfied with the care and the 
follow-on care that has occurred for them?
    Mr. Bowen. Yes, I am.
    Dr. Snyder. One of the issues that you bring up in your 
report is the issue of the CERP money, where the local military 
had some money, our military had money and they could do 
projects, and you make the point that it actually seemed to 
work against ourselves when you are trying to build capacity of 
local people to do projects. How does that get resolved?
    I know on my first trip back when General Petraeus was our 
commander in Mosul, one of the things he talked to us about was 
he wanted the ability to have more money for local projects. 
That was, I think, probably the early acute phase of the 
situation. Is that how you would look at this, that there would 
be a progression in a fairly rapid amount of time from when the 
military has funds to where it would need to be coming through 
the local government? How do you see that?
    Mr. Bowen. The Commander's Emergency Response Program is 
separate from the PRT spending. However, it is operating in 
similar locales addressing similar projects. The PRTs now have 
a quick response fund program, the QRF program similar to CERP, 
actually, to rapidly turn around high-value, high-need 
projects.
    The point that we make in our audit is that better 
coordination between the PRTs and DOD with respect to the use 
of CERP funds is necessary because we ran into situations where 
the PRTs were addressing a project through the provincial 
reconstruction development council, and suddenly it was 
completed independently by CERP program.
    Dr. Snyder. That is certainly an indication of the lack of 
coordination.
    Mr. Bowen. Yes. It is another example of just the need to 
communicate more clearly on the ground.
    Dr. Snyder. Yes. In one of your introductory--I don't know 
the page, 9, I guess it is--of your report, I will just read 
this statement which I think is probably stating the obvious, 
but I quote: ``Despite the best efforts of PRT civilian and 
military officials who are working under dangerous and austere 
conditions to accelerate the rocky transition to self-reliance, 
resolving these problems will likely be a slow process. It will 
require years of steady engagement and will depend heavily on a 
security environment and political settlements at the national 
level.''
    I assume by that you are not saying it will take years of 
PRT involvement, but the hope is that at some point we can 
transition from PRTs to the normal State Department, USAID, 
Department of Justice relationship.
    Mr. Bowen. Yes. That is what I am referring to.
    Dr. Snyder. Right. My last question, Mr. Bowen. We have had 
some ongoing discussions in this committee, but there have also 
been press discussions about the issue of staffing, the 
civilian side of things. In fact, there was a reference in 
either the Post or the Times yesterday in which is kind of 
rehashed the criticism that had come from the military and from 
Secretary Gates about the inability of the civilian side to 
staff up some of these positions.
    From our testimony from our civilian side as recently as 
Tuesday, we had somebody from the State Department, the Justice 
Department, Treasury, Ag and USAID, they felt very strongly 
that they were meeting the needs now in terms of what they had 
been asked to do in terms of staffing these PRTs.
    That is contrary to what Ginger Cruz testified before us a 
few weeks ago, or a couple of months ago, I guess, now, in your 
previous report. This report did not cover that, but we seem to 
have either a breakdown of information or there is new 
information. Do you have any thoughts about that issue in terms 
of the staffing on the civilian side?
    Mr. Bowen. I do. I have some new information on that that I 
got from my staff over in Baghdad today. With respect to phase 
two of staffing of the ePRTs, that phase concluded on August 
31. The goal was to fill 133 slots; 104 are on the ground there 
now, and 16 are enroute; 13 still need to be employed and 
deployed.
    With phase three, which we are in now, the deadline is the 
end of the year. The goal is 111. There are 20 on the ground 
right now, 47 enroute, and 44 yet to be filled. So obviously 
there are some significant staffing issues pending with respect 
to ensuring that the ePRTs can do their mission.
    At the same time, the ePRTs are about 300 and the existing 
PRTs are a little bit over 300. Those existing PRT tours--I 
don't have information on that, but we need to look into it--
are going to expire. There oldest one has been around for two 
years, and so I expect there will be some turnover issues 
ongoing in the existing PRTs as well.
    Dr. Snyder. Mr. Akin, any further questions?
    Mr. Akin. That was a good question, and I don't have any 
additional.
    Dr. Snyder. Mr. Cooper.
    Mr. Cooper. No, thank you.
    Dr. Snyder. We appreciate you all being here today. I am 
sorry we got interrupted the one time. Members may have 
questions that they would like to have you submit a written 
answer to. I will just give you an open-ended question, if when 
you get back to your office you realize you should have said 
something differently, or your staff says, ``you know, what you 
said was really dumb,'' you should feel free to submit any kind 
of written statement in response, and we will be glad to add it 
to our record.
    Thank you both, Mr. Bowen and Mr. Perito, for being here.
    Yes, Mr. Bowen?
    Mr. Bowen. Thank you, Mr. Chairman.
    Mr. Perito. Thank you, Mr. Chairman.
    Dr. Snyder. We are adjourned.
    [Whereupon, at 11:57 a.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                            October 18, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 18, 2007

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            October 18, 2007

=======================================================================
      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Please provide one or more concrete examples of 
possible objectives, measures of effectiveness, and milestones as those 
terms apply to the PRT program.
    Mr. Bowen. As discussed in our report, each PRT has differing needs 
and the plan for each PRT would contain elements tailored to the needs 
of the province.
    An example might be that a particular province has difficulties in 
budgeting. The objective might be to help the province develop 
budgeting and fiscal policies. The steps leading up to improving the 
province's budgeting capacity might be to (1) help it learn financial 
forecasting, (2) develop and adopt financial policies, (3) identify the 
costs of government services, (4) set government charges and fees, (5) 
develop a strategic plan, and (6) develop a capital asset support plan. 
Each of these steps would have an achievement plan that identified the 
steps planned and a timeline for accomplishing each step. This would 
give senior management and the Congress a sense of what we are trying 
to accomplish, whether progress was being made, and whether sufficient 
resources were in place.
    Dr. Snyder. In your discussion with Mr. Akin regarding central, 
regional, and local government authority under the Iraqi constitution, 
you stated that you would get back to the subcommittee with additional 
detail. Please describe your view of the current state of 
``federalism'' and how it affects relations between the different 
levels of Iraqi government under Iraqi law, and your view of how that 
might change under a provincial powers law.
    Mr. Bowen. Iraq's central government has a predominant role in 
decision-making, including decisions related to the allocation of 
resources, especially outside of Iraqi Kurdistan. In the rest of Iraq, 
significant decisions must usually be made in Baghdad--the powers of 
the provinces are vague de jure and scant de facto.
    Three legal elements directly affect the state of federalism in 
Iraq today: the ``regions provision'' in the Constitution; the nascent 
new provincial powers law; and the nascent new elections law.
    The effect of the Constitution's ``regions provision'' was 
suspended at the end of 2006. It is scheduled to become effective on 
April 18, 2008. Once effective, the provision permits two or more 
provinces to form a region, reducing the central government's power 
over the provinces within the region, particularly in the areas of 
security and fiscal affairs. One reason why there have been delays on a 
number of significant pieces of legislation long pending before the 
Council of Representatives is that the regions law will create a 
significant shift in the balance of power between the central 
government and regional governments, and political forces whose support 
is concentrated in particular regions appear to be awaiting a shift in 
power which may make concessions within the national legislature 
unnecessary. The regions law (rather than the provincial powers law, 
discussed below) will be the catalyst for potentially fundamental 
change in the balance of power between the central and provincial 
governments.
    The US Mission in Iraq has identified passage of the provincial 
powers as one of the five most important priorities in our political 
engagement with Iraq. Among other things, the law will clarify the 
authority of provincial councils. Passage of the provincial powers Law 
will enable US Provincial Reconstruction Teams to provide capacity 
building programs more clearly focused on the mechanisms to help 
provinces use the powers they will have in the new dispensation.
    A new elections law will permit the holding of new provincial 
elections, which will correct the imbalances that now exist in a number 
of provincial councils. The imbalances occurred because the Sunnis 
boycotted the January 30, 2005, elections. The problem is particularly 
acute in Diyala Province, which has a majority Sunni population but has 
an all-Shia council. Similar problems exist in Nineveh, where the 
Sunnis have no representation on an all-Kurdish Council, despite having 
a significant presence in the populace.
    Dr. Snyder. Are you are aware, from your investigation of PRTs, of 
whether the U.S. conducts or sponsors Iraqi public opinion polls to 
determine the local impact of U.S. programs, specifically whether PRT 
operations have resulted in increased positive opinion towards the 
U.S.? Would such polls be a useful tool to help evaluate PRT progress?
    Mr. Bowen. In October 2006, SIGIR recommended that the Secretaries 
of State and Defense take action to define PRT objectives and 
performance measures and to develop milestones for achieving program 
objectives. To date, OPA and the Multi-National Force-Iraq (MNF-I) have 
not clearly defined PRT objectives and performance measures. Therefore, 
neither we nor, we believe, PRT management at any level can easily 
report on what the PRTs and ePRTs are accomplishing, individually or 
collectively.
    Assuming that the PRT program, as a whole and in individual 
locations, has clear goals, it may be possible to use polling to help 
determine if those goals are being met--changing perceptions may be 
good evidence of meeting goals. Polling is carried out in Iraq but it 
may be difficult to poll a sufficiently representative group in certain 
geographic areas.
    Dr. Snyder. You provided information regarding current staffing of 
PRTs in Iraq. What is your source for those numbers, and have you 
received additional updates since then?
    Mr. Bowen. The current information on staffing of PRTs was derived 
from information provided by the Office of Provincial Affairs (OPA), 
which oversees the PRT program at the US Embassy, Baghdad.
    Dr. Snyder. In its September 10, 2007, response to the draft SIGIR 
recommendations, the Embassy stated that an interagency working group 
was actively updating objectives and developing performance measures, 
and expected to complete the task with [sic] a month. Given that it has 
been over a month since that response, are you aware of whether they 
have completed this task?
    Mr. Bowen. SIGIR has been told by OPA and State Department 
officials (as of November 9, 2007) that work is nearly complete on 
updating objectives and performance measures for PRTs. We have asked 
for copies of those documents and await their receipt.
    Dr. Snyder. Do you have any specific observation regarding the role 
to be played by PRTs in areas that have been turned over to Provincial 
Iraqi Control (PIC)? At what point should we consider security to have 
progressed to where non-governmental organizations or traditional USAID 
missions would be capable of taking over for PRTs?
    Mr. Bowen. In meetings on November 9, we were informed by State 
Department officials that there have been assurances from the Multi-
National Corps-Iraq Commander, Gen. Odierno, has committed to provide 
military support for PRT mission in provinces which have transferred to 
PIC. PRTs will continue to have an important role around the country as 
military presence is reduced, but military security is still needed by 
PRT staff. When PRT staff have been able to live in and move around 
within their areas of responsibility without military support, other 
modalities for providing assistance to Iraq, which may include 
traditional USAID missions, could be substituted for PRTs.
    Dr. Snyder. Is there any additional information you would like to 
provide to the subcommittee for the record, or any corrections or 
clarifications you would like to make with respect to your testimony?
    Mr. Bowen. While we appreciate the opportunity offered by this 
question, we have no additional comments at this time.
    Dr. Snyder. In your testimony you stated ``There is a need for an 
agreed set of objective for PRTs and an agreed set of measurement for 
their performance.'' Please provide one or more concrete examples of 
possible objectives, measures of effectiveness and milestones as those 
terms apply to the PRT program.
    Mr. Perito. One goal for all PRTs in Iraq and Afghanistan are self-
sufficient, transparent, accountable and capable provincial 
governments. For Iraq, one practical objective on the path to achieving 
that goal has been budget execution. PRTs have been able to assist some 
provincial governments to develop and implement provincial budgets 
utilizing funds obtained from the central government in Baghdad. 
Milestones have included the number of provincial governments that can 
accomplish this task. Metrics include the amount of money obtained and 
disbursed and the number of projects completed.
    Dr. Snyder. Are you aware if the U.S. conducts public opinion polls 
in Iraq or Afghanistan to determine the local impact of U.S. programs, 
specifically where PRT operations have resulted in a more positive 
attitude toward the U.S.? Would such polls be a helpful tool to 
evaluate PRT progress?
    Mr. Perito. A far as I know, US authorities have not conducted 
public opinion surveys in either country to access popular attitudes 
towards PRTs. For Iraq, State Department officials believe such polls 
might indicate that PRTs were trying to upstage Iraqi officials to take 
credit for providing services. In Afghanistan, NATO or ISAF may have 
done polling. US PRTs are under ISAF. This may affect popular attitudes 
toward US PRTs.
    I believe polls would be useful in assessing popular attitudes 
toward PRTs, if done appropriately. It is not in our interest or either 
the Iraqis or Afghans for the role of PRTs to be invisible to the 
general public. Both governments will require our assistance for the 
foreseeable future. Host Government officials should get the credit, 
but the public should understand that we are providing assistance.
    Dr. Snyder. Mr. Cooper discussed whether it is worth the U.S. 
continuing to sponsor PRTs when in parts of Iraq the U.S. is ``actively 
despised.'' Would you care to address Mr. Cooper's concerns as to 
whether it is counter productive to continue this work in the face of a 
lack of consideration for U.S. generosity?
    Mr. Perito. In a counterinsurgency, it is important that citizens 
identify progress with the efforts of their own government and not with 
its foreign supporters. US PRTs try to give credit to the host 
government whenever possible and to emphasize the role of local 
officials.
    The opposite approach can be counterproductive. At the start of the 
PRT program in Afghanistan, US PRTs built schools without first 
determining whether the Afghan education ministry could provide 
teachers. The response from villagers was: ``The US helped us by 
building a school, but our government failed to send a teacher.''
    PRTs need to coordinate their efforts with local authorities, 
reflect local concerns and meet local needs. The target audience is not 
the small group of extremists that despise us, but the majority that is 
looking for reasons to support the government.
    Dr. Snyder. SIGIR and many PRT officials have observed that rule of 
law issues are problematic. Are PRTs the appropriate organization to 
deal with these issues? Are they adequately resourced and staffed in 
Iraq or Afghanistan, or do they require additional support from the 
Department of Justice, military Judge Advocates, or others?
    Mr. Perito. In Iraq and Afghanistan, US assistance for police 
training, assistance to the justice sector and support for corrections 
is provided through the US military training commands and not through 
the operational commands, which are responsible for the PRTs. In 
Afghanistan, US PRT support for rule of law is generally limited to 
paying for construction of police stations and courthouses and advising 
the Afghan police, if the PRT has a US military police officer 
assigned.
    In Iraq, the PRT rule of law officer is usually a lawyer from the 
Justice Department or a commercial contractor working for the State 
Department Bureau of International Narcotics and Law Enforcement 
Affairs. PRT Rule of Law officers have access to PRT project funds, but 
their ability to influence the Iraqi judicial system is limited. PRTs 
would need substantial increases in staffing, funding and authority to 
make an impact on Rule of Law performance. This assistance should be 
provided by the Department of Justice and not by contractors of a 
commercial firm.
    Dr. Snyder. Do you have any observations regarding the role for 
PRTs in areas that have been turned over to Provincial Iraqi Control? 
At what point is security sufficient to justify turning over PRT 
operations to traditional USAID missions?
    Mr. Perito. In Iraq, the Italian PRT is located in Nasiriyah, Dhi 
Qar province, which was transferred to Iraqi control in September 2006. 
The Italian PRT has a USAID component that is staffed by American and 
Iraqi contractors. The Italians call the Dhi Qar PRT a ``Reconstruction 
Support Unit.'' The staff is entirely civilian. The Dhi Qar PRT has no 
military component.
    For security, the Italian PRT relies upon foreign contract guards 
and the Iraqi military and police. It is located in a Shia area that 
has not experience insurgency or sectarian strife. As the PRT operates 
in a permissive environment, it does not use armored vehicles, nor does 
it restrict its activities to the provincial capital. The PRT has 
successfully established excellent working relations with Iraqi 
officials and tribal leaders. The PRT carries out a wide range of 
development projects. As security improves, other PRTs could transition 
to this type of operation.
    Dr. Snyder. Is there additional information you would like to 
provide or corrections to your testimony?
    Mr. Perito. No.

                                  <all>

</pre></body></html>
